(§0

&

Case No.: _
IN THE SUPREME’ COURT
OF THE UNITED STATES

legal mail
Provided to Florida Stats
ft If & for mailing

j£on on

SIMONA. SANCHEZ,
Petitioner,
v
SECRETARY OF DEPARTMENT
OF CORRECTIONS, et al.,
Respondent.
PROOF OF SERVICE
I, Simon Sanchez, ^o swear or declare that on this date^^A^

tl.

2020 as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF
CERTIORARI, and APPENDIX TO PETITION FOR WRIT OF CERTIORARI on each
party's Counsel, an on every other person required to be served, by depositing an
envelope containg the above documents in the United States mail,properly addressed to
each of them and with first-class postage prepaid.
The names and addresses of those served are as follows; Attorney General. State
of Florida et, al., PL-01, The Capital, Tallahassee, Florida 32399-1050.

£s*

I declare under penalty of peijury an 28 U.S.C. § 1746 tht the foregoing is true
and correct. Executed on

1)

.2020

/s/
SIMONA. SANCHEZ
DC#J38918, Petitioner pro se

Additional material
from this filing is
available in the
Clerk's Office.

